Office of Justice Programs Weed and Seed Grants Awarded to the Salt Lake City Corporation, Salt Lake City, Utah

Office of Justice Programs Weed and Seed Grants 
Awarded to the Salt Lake City Corporation, Salt Lake City, Utah

Audit Report GR-60-05-014


September 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of Weed and Seed grants awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Salt Lake City Corporation (SLC), Salt Lake City, Utah.  Our audit included Grant Nos. 2001-WS-QX-0107 and 2004-WS-Q4-0159. 

The Weed and Seed strategy brings together federal, state, and local crime-fighting agencies, social services, prosecutors, business owners, and neighborhood residents under the shared goal of weeding out violent crime and gang activity, while seeding in social services and economic revitalization.  

Four fundamental principles that underlie the Weed and Seed strategy include collaboration, coordination, community participation, and leveraging resources.  The Weed and Seed program is a comprehensive response to crime and neighborhood deterioration.  The program includes a multi-level strategic plan that includes four basic components:

Law enforcement

	Community policing

	Prevention, intervention, and treatment

	Neighborhood restoration

Law enforcement and community policing represent the weeding aspect of the strategy.  Prevention, intervention, treatment, and neighborhood restoration represent the seeding components.

The Department of Justices Community Capacity Development Office has overall responsibility for the Weed and Seed Program, including grant management, technical assistance, training programs, and resources to support local Weed and Seed strategies.1
The Steering Committee is the primary work force in the Weed and Seed program.  Often co-chaired by a U.S. Attorney, the Steering Committee is responsible for establishing Weed and Seed goals and objectives, designing and developing programs, providing guidance on implementation, and assessing program achievement.  

U.S. Attorneys serve as both the main contact to Weed and Seed sites and as the facilitator of the programs community-based coordination efforts.  The U.S. Attorney coordinates federal, state, and local law enforcement and prosecutorial activities as well as provides oversight of the Weed and Seed strategy. 

The SLC was awarded an initial grant and two supplements totaling $675,000, and another grant totaling $225,000, for a total of $900,000.  As of April 20, 2005, the SLC had been reimbursed $676,043 of the $900,000 grant funds awarded.  The grants were awarded to help: (1) control violent crime, (2) control drug trafficking, (3) control drug-related crime in designated high-crime neighborhoods, and (4) provide a safe environment free of crime and drug use for residents.

As part of the overall audit, we tested the SLCs compliance with six essential grant conditions  grant expenditures, grant drawdowns, budget management and control, monitoring of subrecipients, matching costs, and reporting.  Further, we tested the SLCs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  Finally, we performed an overall assessment of the effectiveness of the SLC Weed and Seed program.

As a result of our testing, we initially identified dollar-related findings totaling $18,793, or 2.1 percent, of total grant funds awarded.2   Specifically, we found:


The SLC was reimbursed $18,793 for costs charged to the grants that were either not supported by adequate documentation or were not allowable.  Subsequent to our site visit, the SLC provided us with supporting documentation that remedied the $18,793 of unsupported and unallowable costs charged to the grant.   

	Timesheets submitted by one subrecipient were not signed by the applicable employees.  Subsequent to our site visit, the SLC provided us with supporting documentation that it remedied the unsigned timesheets by having the security guards sign their timesheets.

	These items are discussed in detail in the Findings section of the report.  Our audit objective, scope and methodology appear in Appendix I.

We discussed the results of our audit with SLC officials, and have included their comments in the report, where applicable.  Since there were no recommendations associated with this report, both OJP and SLC elected not to provide written comments.

 



Footnotes

The Community Capacity Development Office was formerly known as Executive Office for Weed and Seed.

	The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.